                                                    NATIONAL SCIENCE FOUND
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF WESTIGATIONS

                                               CLOSEOUT MEMORANDUM




           We received an'allegation that an NSF PI (the subject1)used funds fiom his NSF grants to make
           a significant donation to a professional organization for support of a conference. Our review of
           publicly-available information indicated that the Subject's institution sponsored the conference at
           a level consistent with the allegation. We therefore wrote to the Subject, who responded that no
           grant funds were used. The Subject's institution provided supporting documentation showing
           that the funds in question were drawn on an unrestricted account. We concluded there was no
           substance to the allegation.

           Accordingly, this case is closed.




I'
 NSF OIG Fonn 2 (1 1/02)
